<html>
<title> - [H.A.S.C. No. 113-37]STATUS OF IMPLEMENTATION OF THE REQUIREMENTS OF THE VOW ACT AND THE RECOMMENDATIONS OF THE PRESIDENTIAL VETERANS EMPLOYMENT INITIATIVE TASK FORCE FOR THE DOD TRANSITION ASSISTANCE PROGRAM GOALS, PLANS, AND SUCCESS (GPS)</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




                        [H.A.S.C. No. 113-37]
===================================================================== 
 
                      STATUS OF IMPLEMENTATION OF

                    THE REQUIREMENTS OF THE VOW ACT

                     AND THE RECOMMENDATIONS OF THE

                    PRESIDENTIAL VETERANS EMPLOYMENT

                   INITIATIVE TASK FORCE FOR THE DOD

                    TRANSITION ASSISTANCE PROGRAM--

                    GOALS, PLANS, AND SUCCESS (GPS)

                               __________

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON MILITARY PERSONNEL

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             APRIL 24, 2013

                                     
[GRAPHIC] [TIFF OMITTED] 

                                     



                   SUBCOMMITTEE ON MILITARY PERSONNEL

                  JOE WILSON, South Carolina, Chairman

WALTER B. JONES, North Carolina      SUSAN A. DAVIS, California
JOSEPH J. HECK, Nevada               ROBERT A. BRADY, Pennsylvania
AUSTIN SCOTT, Georgia                MADELEINE Z. BORDALLO, Guam
BRAD R. WENSTRUP, Ohio               DAVID LOEBSACK, Iowa
JACKIE WALORSKI, Indiana             NIKI TSONGAS, Massachusetts
CHRISTOPHER P. GIBSON, New York      CAROL SHEA-PORTER, New Hampshire
KRISTI L. NOEM, South Dakota
                Craig Greene, Professional Staff Member
                 Debra Wada, Professional Staff Member
                      Colin Bosse, Staff Assistant



                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2013

                                                                   Page

Hearing:

Wednesday, April 24, 2013, Status of Implementation of the 
  Requirements of the VOW Act and the Recommendations of the 
  Presidential Veterans Employment Initiative Task Force for the 
  DOD Transition Assistance Program--Goals, Plans, and Success 
  (GPS)..........................................................     1

Appendix:

Wednesday, April 24, 2013........................................    21
                              ----------                              

                       WEDNESDAY, APRIL 24, 2013
  STATUS OF IMPLEMENTATION OF THE REQUIREMENTS OF THE VOW ACT AND THE 
RECOMMENDATIONS OF THE PRESIDENTIAL VETERANS EMPLOYMENT INITIATIVE TASK 
  FORCE FOR THE DOD TRANSITION ASSISTANCE PROGRAM--GOALS, PLANS, AND 
                             SUCCESS (GPS)
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Davis, Hon. Susan A., a Representative from California, Ranking 
  Member, Subcommittee on Military Personnel.....................     2
Wilson, Hon. Joe, a Representative from South Carolina, Chairman, 
  Subcommittee on Military Personnel.............................     1

                               WITNESSES

Kelly, Dr. Susan S., Deputy Director, Transition to Veterans 
  Program Office, U.S. Department of Defense.....................     3
Moran, John K., Deputy Assistant Secretary, Veterans' Employment 
  and Training Service, U.S. Department of Labor.................     4
Pummill, Danny, Director, Veterans Benefits Administration--
  Department of Defense Program Office, U.S. Department of 
  Veterans Affairs...............................................     6

                                APPENDIX

Prepared Statements:

    Davis, Hon. Susan A..........................................    27
    Kelly, Dr. Susan S...........................................    29
    Moran, John K................................................    52
    Pummill, Danny...............................................    61
    Wilson, Hon. Joe.............................................    25

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mrs. Davis...................................................    75

Questions Submitted by Members Post Hearing:

    Mr. Gibson...................................................    79
  STATUS OF IMPLEMENTATION OF THE REQUIREMENTS OF THE VOW ACT AND THE 
RECOMMENDATIONS OF THE PRESIDENTIAL VETERANS EMPLOYMENT INITIATIVE TASK 
  FORCE FOR THE DOD TRANSITION ASSISTANCE PROGRAM--GOALS, PLANS, AND 
                             SUCCESS (GPS)

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                        Subcommittee on Military Personnel,
                         Washington, DC, Wednesday, April 24, 2013.
    The subcommittee met, pursuant to call, at 2:06 p.m., in 
room 2212, Rayburn House Office Building, Hon. Joe Wilson 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM 
  SOUTH CAROLINA, CHAIRMAN, SUBCOMMITTEE ON MILITARY PERSONNEL

    Mr. Wilson. The hearing will come to order. Today, the 
Subcommittee on Military Personnel will hear testimony on the 
Transition Assistance Program run by the Department of Defense, 
Department of Labor, and Department of Veterans Affairs, which 
assists transitioning military members as they prepare to 
separate from their military service to civilian life.
    Normally, the military transitions just as many service 
members back to society as they enlist every year, but during 
the next several years as the military reduces end strength 
that number will grow.
    So it is critical that transitioning service members are 
provided with the right information they need to make important 
decisions to support their future endeavors. When Congress 
established the Transition Assistance Program in 1991, the 
military was also undergoing a drawdown, but it this was not 
conducted after more than 10 years of combat with men and women 
participating in multiple combat deployments. The high number 
of deployments and the high unemployment rate for the post-9/11 
veterans has generated several changes that affect the program.
    First of all, the VOW [Veterans Opportunity to Work] to 
Hire Heroes Act of 2011 requires all service members who have 
been on Active Duty for more than 180 days to participate in 
the program. Second, the Veterans Employment Initiative Task 
Force made recommendations to revamp and improve the existing 
program to ensure members were provided the information and 
services they needed tailored to their postmilitary 
initiatives. Today, we will hear from witnesses about the 
status of the implementation, the changes and improvements to 
the Transition Assistance Program and what mechanisms are 
available to identify and share best practices, receive 
feedback from service members, and how does each agency define 
success.
    I would like to welcome our distinguished witnesses. Dr. 
Susan S. Kelly, Deputy Director, Transition to Veterans Program 
Office, Department of Defense; Mr. John K. Moran, Deputy 
Assistant Secretary, Veterans' Employment and Training Service, 
Department of Labor; Mr. Danny Pummill, Director, Veterans 
Benefits Administration, Department of Defense Program Office, 
Department of Veterans Affairs.
    Ms. Davis, would you have any opening comments?
    [The prepared statement of Mr. Wilson can be found in the 
Appendix on page 25.]

    STATEMENT OF HON. SUSAN A. DAVIS, A REPRESENTATIVE FROM 
 CALIFORNIA, RANKING MEMBER, SUBCOMMITTEE ON MILITARY PERSONNEL

    Mrs. Davis. Yes. Thank you, Mr. Chairman. And I am 
certainly pleased that we are holding this important hearing 
today on the current status of the Transition Assistance 
Program. I also want to welcome our witnesses; Dr. Kelly, Mr. 
Moran, and Mr. Pummill, thank you so much for your presence.
    Today's hearing will focus on how the Departments of 
Defense, Labor and Veterans Affairs are working together--I 
would add Education in there, perhaps you can provide some help 
with that, as well--to enhance the transition of service 
members back to their communities. Over the past several years, 
the unemployment levels of those who have served in Iraq and 
Afghanistan has received much attention. Many of these 
individuals, following their service, return home to a job 
market that has been challenging, to say the very least, and to 
the communities that have been hard hit economically.
    While the economy and the job market continue to slowly 
improve, the transition of service members remains a focus of 
attention. Efforts to improve the transition services provided 
to service members to ensure that they are provided the tools 
they need to ensure a smooth reentry into society, that is 
absolutely vital to ensure the long-term stability of these 
individuals. In our efforts to help service members transition, 
there has been considerable attention paid to how we can 
improve the transfer of military skills and certifications.
    But what is less clear is whether we have an understanding 
of where the jobs in the private sector really are, and whether 
these new programs provide the capacity for a service member to 
transition their skills to meet the demands of the job market. 
For example, in 2012 we authorized the Services to allow 
transitioning service members to participate in apprenticeship 
programs while still in service. The program in San Diego, 
which I have had a chance to visit a number of times, is quite 
impressive and has trained a number of marines who have gone 
into civilian jobs following their successful completion of the 
program.
    Transitioning out of the service and back into civilian 
life can be one of the most stressful events in a person's 
life, and it is important that we provide the tools these 
individuals need to succeed. So I look forward to hearing from 
our witnesses, especially on how we are doing to implement the 
new requirements under the VOW Act and the recommendations from 
the President's Task Force on Veterans Employment. I am also 
interested in learning how the Departments will measure the 
effectiveness of these changes and whether there continues to 
be gaps in the program that need further focus.
    Thank you all again for being here. Thank you, Mr. 
Chairman. We look forward to the hearing.
    [The prepared statement of Mrs. Davis can be found in the 
Appendix on page 27.]
    Mr. Wilson. Thank you, Mrs. Davis. And we will be having 
votes at any time. We would proceed right away to hear your 
testimony, and then we will very likely recess and then come 
back. And so, Dr. Kelly, we will begin with your testimony. As 
a reminder, please keep your statements to 3 minutes. We have 
your written statements for the record.
    Thank you again for being here today.

STATEMENT OF DR. SUSAN S. KELLY, DEPUTY DIRECTOR, TRANSITION TO 
      VETERANS PROGRAM OFFICE, U.S. DEPARTMENT OF DEFENSE

    Dr. Kelly. Thank you, Chairman Wilson, and thank you, 
Ranking Member Davis and the distinguished members of the 
subcommittee. I appreciate the opportunity to be here today, 
joined by my colleagues from the Departments of Veterans 
Affairs, and Labor, to discuss the status of the Department's 
implementation of the requirements of the VOW to Hire Heroes 
Act of 2011. Our progress on the redesign of the Transition 
Assistance Program, known as TAP, and the DOD's [Department of 
Defense] views on H.R. 631, the ``Servicemembers' Choice in 
Transition Act of 2013.''
    TAP, the cornerstone of the Department's transition 
efforts, is now a collaborative partnership among the 
Departments of Defense, Veterans Affairs, Labor, Education, the 
Small Business Administration, and the Office of Personnel 
Management. It is the primary platform used to deliver an array 
of services and benefits information to separated service 
members. Our overall goal at DOD is to ensure those who are 
leaving the service are prepared for their next step, whether 
that step is pursuing additional education, finding a job in 
the public or private sector, or starting their own business.
    To that end, the Department and its partners have 
fundamentally redesigned TAP, making the needs of today's 
service members and their families a top priority. The 
redesigned TAP was built around four core objectives discussed 
in detail in my written statement. The culmination of the TAP 
redesign efforts, the Transition GPS--which stands for ``Goals, 
Plans, Success''--encompasses the requirements of the VOW Act. 
Moreover, the redesigned TAP establishes the new career 
readiness standards, extends the transition preparation through 
the entire span of a service member's career, and provides 
counseling to facilitate the development of an individual 
transition plan.
    The Department and our interagency partners are 
implementing the redesigned TAP according to the mandates and 
the intent of the VOW Act and the recommendations from the 
Veterans Employment Initiative Task Force. We have been 
implementing part of the redesign since November of 2012, and 
we are currently in the second phase of implementation of 
Transition GPS, which is targeted for completion by the end of 
fiscal year 2013. Furthermore, we are on course toward 
implementing the military life cycle transition model by the 
end of fiscal year 2014.
    The objective of the model is for transition to become a 
well-planned, organized progression that empowers service 
members to make informed career decisions and take 
responsibility for advancing their personal goals.
    At this time, I would like to briefly address H.R. 631. The 
Department's view is that this legislation would negatively 
impact transitioning service members and would significantly 
impede the full implementation of the redesigned TAP. DOD and 
the military departments, and our interagency partners, are 
successfully implementing the redesigned TAP.
    The Department believes that the best course of action at 
this time is not to provide another prescriptive legislative 
remedy, but to let us and our partners continue the 
implementation of a new redesigned TAP. Mr. Chairman, this 
concludes my statement. On behalf of the men and women in the 
military today, and their families, I thank you and the members 
of this subcommittee for your steadfast support and leadership 
in this important area.
    I am happy to answer any questions you or the other members 
of the subcommittee may have.
    [The prepared statement of Dr. Kelly can be found in the 
Appendix on page 29.]
    Mr. Wilson. Thank you very much, Dr. Kelly.
    We now proceed to Mr. Moran.

    STATEMENT OF JOHN K. MORAN, DEPUTY ASSISTANT SECRETARY, 
 VETERANS' EMPLOYMENT AND TRAINING SERVICE, U.S. DEPARTMENT OF 
                             LABOR

    Mr. Moran. Good afternoon, Chairman Wilson, Ranking Member 
Davis, and members of the subcommittee. Thank you for the 
opportunity to participate in today's hearing. My name is John 
Moran, and I am honored to serve as the Deputy Assistant 
Secretary for the Veterans' Employment and Training Service at 
the Department of Labor. DOL [Department of Labor] is committed 
to preparing service members and their families to transition 
from the military to the civilian workforce.
    The Transition Assistance Program, or TAP, is an integral 
part of these efforts. TAP is an interagency effort among DOL, 
VA [Department of Veterans Affairs], DOD, DHS [Department of 
Homeland Security], and various other agencies. Together, we 
work to provide separating service members and their spouses 
with the training and support they need to successfully 
transition to the civilian workforce. Through TAP, DOL brings 
to bear its extensive expertise in employment services to 
provide a comprehensive 3-day workshop at U.S. military 
installations around the world.
    To date, the Department have provided the employment 
workshop to over 2.6 million separating or retiring service 
members and their spouses. Last year alone, DOL conducted more 
than 4,500 employment workshops for over 160,000 participants. 
In August 2011 the Department initiated a major effort aimed at 
revamping and updating the employment workshop curriculum. The 
result is a highly effective workshop that reflects the best 
practices in career development and adult learning. Around the 
same time the Department initiated the redesign, the President 
established the joint VEI [Veterans Employment Initiative] Task 
Force to develop proposals to maximize the career readiness of 
all service members.
    The task force recommended the fundamental redesign of TAP. 
This launched a coordinated effort to adopt and implement the 
training and service of the remodel, called Transition GPS. The 
VOW Act mandated several reforms to further enhance TAP, 
including mandatory participation in the employment workshop. 
In addition, the VOW Act requires DOL to use contract 
facilitators to ensure a standardized, high-quality 
professional cadre of instructors. The Department has completed 
the transfer to contract facilitation and has successfully 
rolled out the new workshop at all military installations.
    DOL has worked closely with its partner agencies to ensure 
that the redesigned employment workshop is seamlessly 
integrated into the overall Transition GPS model. Between 
February and April 2012, DOL conducted a 3-month pilot of the 
redesigned TAP employment workshop at 11 military 
installations. Based on the pilot findings and comments from 
hundreds of different organizations and individuals, DOL fine-
tuned the curriculum which is in use today. The redesigned 
workshop has incorporated training best practices in adult 
learning, and increased emphasis on networking and 
communicating the veterans' job skills to employers.
    The new curriculum was specifically geared toward the 
mechanics of getting a good job. Participants learn how to 
explore career interests, understand the labor market, build 
resumes, prepare for interviews and negotiate job offers. I am 
happy to report that the new curriculum has been well received. 
Student feedback from over 2,000 attendees during January and 
February of this year gave the employment workshop an overall 
rating of 4.4 on a 1-to-5 scale. The data strongly suggests the 
Department's revised employment workshop is meeting the high 
expectations of its customers.
    Finally, I would like to mention the Department has serious 
concerns about H.R. 631, the ``Servicemembers' Choice in 
Transition Act of 2013,'' which would negatively impact our 
transitioning service members. The Department looks forward to 
working with the subcommittee to ensure that our transitioning 
service members have the resources and training they need to 
successfully transition to the civilian workforce.
    Mr. Chairman, distinguished members of the subcommittee, 
this concludes my statement. Thank you for the opportunity to 
testify today, and I would be pleased to answer any questions 
you may have.
    [The prepared statement of Mr. Moran can be found in the 
Appendix on page 52.]
    Mr. Wilson. Thank you, Mr. Moran.
    And we now proceed with Director Pummill.

    STATEMENT OF DANNY PUMMILL, DIRECTOR, VETERANS BENEFITS 
  ADMINISTRATION--DEPARTMENT OF DEFENSE PROGRAM OFFICE, U.S. 
                 DEPARTMENT OF VETERANS AFFAIRS

    Mr. Pummill. Chairman Wilson, Ranking Member Davis, and 
members of the subcommittee, I appreciate the opportunity to 
appear before you today. In August 2011 the President announced 
his comprehensive plan to address the issues of unemployment 
and the educational and entrepreneurial opportunities for 
returning service members and veterans struggling to find jobs 
suitable with their experience and talent.
    In December 2011, the task force provided recommendations 
to the President for a redesigned Transition Assistance Program 
called GPS. These overarching recommendations intend to 
transfer service members' transition to veteran status into a 
well-planned, organized process which equips them to make 
informed career decisions and advance them toward achievement 
of their goals. The end state will be a transform process that 
places throughout a service member's military career in 
addition to the new Transition GPS program.
    VA is also working with the Army in delivering virtual 
briefings to service members across the globe. Additionally, we 
are working with DOD to develop online courses of the VA 
briefing to be housed in DOD's joint knowledge online Web site. 
This will allow participants to access courses according to 
their own schedules and train at their own pace. Our new format 
is dynamic, instructor-led and classroom-based. Quantity 
delivery of VA products and services is essential to the 
success of the Transition GPS and implementation of the task 
force VEI recommendations.
    VA continues to make recommendations and improvements to 
the curriculum on a quarterly basis through feedback provided 
by service members, briefers and VA subject matter experts to 
ensure consistency and accuracy of the program and individual 
presentation skills. We have set high standards for our 
contract briefers delivering the enhanced briefings. During the 
2-week training process, where they learn presentation skills 
in the VA curriculum, they are required to take a written 
examination that measures their ability to research and 
understand VA benefits.
    The evaluation is also put in place to measure instructor 
proficiency in presenting a 4-hour and a 2-hour VA briefing. 
Trainees must show proficiency in their platform skills in 
order to pass the training. Criteria for evaluating briefers 
includes accuracy in relaying content, professionalism, student 
engagement, use of technology, and control of the classroom. 
Briefers who do not meet the minimum proficiency will be 
provided additional guidance, education and assistance to help 
them achieve the minimum standards. If they are unable to 
achieve the minimum standards, then we let them go.
    In conclusion, the VA is honored to continue our role in 
assisting with the transition of service members from military 
to civilian life. I would also like to take this opportunity to 
express VA's respect and appreciation to our partner agencies 
in this unprecedented endeavor to assist service members and 
their families. This program is designed to give men and women 
in the service and their families an opportunity to hear and 
learn more about their benefits, research benefits, and fit 
their individual needs.
    VA continually seeks to improve the quality and breadth of 
our outreach service to all Components, Active Duty, Guard and 
Reserve. And we continue to work with our partner agencies. VA 
fully supports the Administration and congressional efforts to 
ensure that transitioned service members are ready for 
employment and education upon separation.
    Mr. Chairman, this concludes my statement. I would be 
pleased to answer any questions that you or members of the 
subcommittee may have at this time.
    [The prepared statement of Mr. Pummill can be found in the 
Appendix on page 61.]
    Mr. Wilson. Thank you, Director. And we will now proceed to 
questions. And each subcommittee member will be able to ask 
questions for 5 minutes. We have an expert professional 
timekeeper. Craig Greene will maintain the time, and very 
proficient at this, including me. And even as we begin, I want 
to thank you. I want to thank you as a member of Congress, but 
I want to thank you as a veteran myself and also the proud Dad, 
all credit to my wife, of four sons serving in the military 
today.
    So we are a military family. And it is just reassuring to 
see the services and the thoughtfulness that is being provided 
to our service members. So thank you very much. As we proceed, 
Mr. Moran, you have already actually touched on this, but 
beginning with Dr. Kelly I would like you all to touch further. 
And that is, the feedback that you receive on the Transition 
Assistance Program. How is the effectiveness? How do you 
determine if the program is being successful?
    Dr. Kelly. Well, we started first by making sure that we 
had the curriculum right and that it was hitting the mark. So 
this summer we piloted curriculums. And with that pilot came an 
online assessment for participants to provide us feedback, 
module-by-module. And that assessment evaluated if they were 
mastering their learning objectives. It asked them about the 
professionalism of the instructors, the facilities, what still 
needed to be done. So that was the online assessment for the 
members to give us direct feedback, and they did.
    We also had, at each pilot site observer teams from across 
the interagency, 10 subject matter experts, go to each one of 
the pilot sites and again conduct a very structured assessment. 
As well as conducting sensing sessions with service members who 
had gone through the previous TAP program and then who went 
through the current pilots, and asked them for their 
evaluations of the before and the after. Nine hundred fifty-
four military members went through those pilots this summer of 
just the core curriculum, and we had very, very high marks.
    They were mastering the learning objectives, they gave us 
good, strong feedback, and their confidence was increased. And 
they thought they were getting the skills that they needed. So 
that was good feedback to us. We also received feedback to help 
us modify the curriculum and some of with weaknesses that that 
they identified for us. We modified the curriculum with subject 
matter experts and are relaunched that again. We also have an 
enduring online assessment that we set up so that we continue 
to get feedback anonymously from the participants of the 
curriculum so that they can give us unfettered and direct 
feedback on--again, as to the curriculum, the facilities, the 
logistics of getting into the courses, et cetera.
    And again, we are measuring the learning outcomes, their 
confidence, and if they think that these skills are what they 
need and how prepared they are. We also have short-term, 
medium-term, and long-term performance measures across the 
interagency that we will be monitoring. It starts with DOD, 
with career readiness standards, how many of our military are 
meeting career readiness standards. A medium-term one is how 
many military members are receiving credentials or earning 
their credentials while they are still on Active Duty.
    A long-term example would be the number of veterans who 
complete their course of study at the universities, colleges, 
and the technical institutes. And that will be a measurement 
that comes from both VA and the Department of Education. So 
there is a whole suite of performance measures--immediate, 
medium-, and long-term--that we will be using to assess our 
return on investment.
    Mr. Wilson. Good. Thank you.
    Mr. Moran.
    Mr. Moran. Yes, thank you for the question. We obviously 
have been collaborating with DOD and our other partner agencies 
and working together with obtaining the evaluation information 
at the end of each class. So what we are seeing right now, as I 
mentioned in my statement, is that the----
    Mr. Wilson. Four-point-four?
    Mr. Moran. I am sorry. Four-point-four out of a five-scale. 
We are getting very high marks. If--I would like to even read 
to you a couple comments that were made. Because in addition to 
sort of the numeric scores, they were allowed to put in some 
free text. So a couple of the comments that were made. ``I 
didn't think I had the skills for a high-paying job. The DOL 
employment workshop has changed my life.'' ``I was fearful of 
my future--however, after the DOL workshop I no longer feel 
fearful, and excited and eager to start my new career.'' 
``Thank you for creating this course. It has changed my life.''
    So we collaborate with DOD and VA to collect all of this 
evaluative information. We look at it from the DOL employment 
perspective. Right now, our marks are pretty good. That doesn't 
mean we are resting on our laurels. In fact, we want to look at 
an annual cycle of curriculum review and revision, as 
necessary. And we are looking at actually taking our evaluation 
process further than what we call the level-one evaluation into 
something more sophisticated, where we are reaching out to 
these folks after, say, 8 months out on the street to see how 
they can reflect back on the course that they did take and how 
it how it was valuable to them in their current life 
circumstances or what could have helped it a little bit more.
    So we are very engaged in the evaluation process. And it is 
a great one right now, but we even want to extend it a little 
bit further very shortly.
    Mr. Wilson. Well, thank you. And I apologize, Director, but 
Craig has already tapped me on the wrist. My time is up.
    We proceed to Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Pummill, I wanted to ask you 
first about how the Department of Labor tracks industries and 
the types of jobs that are currently available, and where 
future job opportunities are growing. How do you see that? And 
I am directing that to Mr. Pummill, actually.
    Mr. Pummill. I am sorry?
    Mrs. Davis. . Well, part of it is that you are being cross-
trained, right, now? And so I think it is important if we try 
and understand. Do you see that that information is being 
tracked so that you have that information, as well?
    Mr. Pummill. Could you repeat the question?
    Mrs. Davis. The information about where the jobs are 
available. What jobs are available, where they are available, 
and where future job opportunities might be. Are you able to 
access that information? Do you----
    Mr. Pummill. Yes, I am not sure. I will have to find out. I 
believe it is all at the Department of Labor, and it is in 
their area of expertise. But--I will check with the people at 
VA that run the jobs programs and find out what information 
they have in additional to this.
    [The information referred to can be found in the Appendix 
on page 75.]
    Mr. Moran. So within the Department of Labor, we do labor 
market surveying and research. And we have online tools through 
our Bureau of Labor Statistics to do forecasting of job 
opportunities and future growth. So we have a very powerful 
tool online called My Next Move for Veterans. And within that 
tool, a veteran can put in a military occupational series and 
look at what the forecast is for similar work in the civilian 
sector over the next 10 years down to a city, State or region 
of the country.
    So online they can go in and they can basically say I want 
to be a welder, where are those jobs? What is the forecast for 
that type of work over the next 10 years? And they can identify 
the specific areas of the country that have better prospects in 
that area for them so they can target their job opportunities 
and research in that area.
    Mrs. Davis. And I think part of what we are trying to 
understand is the extent to which everybody who is engaged in 
this really is familiar with the kinds of programs and 
information that is really out there. Because in many cases, 
and I know that we have some phenomenal programs in San Diego, 
for example. They have really been working very hard on this. 
There are many organizations that want to be involved. But the 
reality is that we don't necessarily have the opportunities for 
everybody.
    And so you have to identify where those jobs are. And I 
think that for some programs that have been able to not just 
employ two or three veterans, in some cases, but really are 
looking for large numbers and how--you know, how you make sure 
that those are available.
    Mr. Moran. There are actually two other comments I would 
like to make. One is that we also work collectively with the 
Joining Forces Initiative at the White House. And there are 
many companies making commitments to hire thousands of veterans 
in--and service members. So one of the things we make sure we 
do within our employment workshop is get that information out, 
that fresh information out, as it occurs so that our 
instructors can tell the folks in the training class who is 
making commitments, where those commitments are being made, and 
what type of work is available.
    The other point I wanted to make is that the Department of 
Labor, through its American Job Centers, is also actively 
engaged in working with any veteran or separating service 
member who is looking for assistance to find the work that he 
or she may want. So between those two,the Transition Assistance 
Program and the American Job Centers, I think we have a pretty 
robust system out there right now to help everybody find the 
type of work that they are qualified for and to be able to make 
decisions about where to move in this country to find that 
work.
    Mrs. Davis. All right, my time is up. Mr. Chairman, we will 
come back later and try and focus more on that. Thank you.
    Mr. Wilson. Thank you very much.
    Dr. Joe Heck, of Nevada
    Dr. Heck. Thank you, Mr. Chairman. And thank you all for 
what you are doing to try to make sure that our returning 
veterans can transition to civilian life. I tend to concentrate 
on the Reserve Components, having spent 23 years in the 
Reserves. And I know that reservists that serve more than 180 
days are eligible for the program. But according to the DTM 
[Directive-Type Memorandum], they are supposed to begin their 
preseparation counseling as soon as possible in their remaining 
periods of service.
    So right now, most tours, at least the initial tours, is, 
you know, 1 year. So how can they mobilize, and you know they 
have a 1-year period--and start their transitioning out at the 
same time that they are actually still transitioning in? How is 
it working for reservists?
    Dr. Kelly. That is a very good question. And I will tell 
you, that is one of the biggest challenges in this particular--
in the current model of Transition GPS. The Army actually 
experimented this summer trying to find out the best way to 
give the Transition GPS curriculum and all the services and 
information to the reservists as they were demobilizing. The 
rule that that is followed, though, is that they have to go 
through Transition GPS before they separate. There are some 
exemptions in that DTM in reference to the DOL employment 
workshop and some of the other parts of the curriculum based on 
if they are returning to a job after their 1-year mobilization 
or if they are returning to a course of study at the university 
or a college.
    So some of those reservists, as they were coming back, 
those numbers shrank down, if you allow me that term, and not 
as many had to stay for the full course. But the issue that you 
bring up is exactly why the--we have the second spiral and the 
second model of the military life cycle.
    So that preparation for a civilian career, aligning your 
goals for the civilian career, and reservists go back and 
forth, have a continuum of service. The military life cycle 
requires the services to identify touch points for both the 
Reserve Component, the Guard, and the Active Duty as to when 
the parts of Transition GPS will be provided, as well as what 
are those touch points that commanders, first sergeants, et 
cetera, ask that military member to deliberately do some 
planning as to how they are going to use their military 
training, not only their technical training, but also their 
experiences and leadership in team building, decisionmaking, et 
cetera, and how that is going to apply for their long-term 
goals in their civilian careers.
    Or how can they apply that to the jobs that they are 
returning to as reservists or guardsmen. So that is exactly why 
we did not stay satisfied with a just before you end your 
Active Duty or your mobilization. We are pushing it across the 
military life cycle. That was a major concern for us.
    Dr. Heck. So as that demobilizing reservist is going 
through the GPS process, and they get to that point where they 
are supposed to have their capstone, how is that done for 
reservists? And what happens if that is not accomplished? You 
know, they are back at their demobilization site, or you know 
they have got a REFRAD [Release From Active Duty] order that is 
going to release them on a certain date, if they don't complete 
their capstone what happens?
    Dr. Kelly. They are staying to get the through the 
Transition GPS and that capstone. They are having their career 
readiness standards verified before they are sent home.
    Dr. Heck. So they will get an order, an extension of an 
order, to stay on Active Duty until they are?
    Dr. Kelly. They do not, they do not. So this is an 
institutional shift for us. And we have to start embedding that 
planning, just like the Department had to adjust to do the 
postdeployment health assessments, the redeployment health 
assessments. We had to extend that time when they came back, 
which decreased the time that they could be in-theater. We are 
going to have to do the same in reference to Transition GPS and 
getting these curriculums under their belts.
    But again, that is also why the virtual curriculum is going 
to be so helpful for the Reserve Component, and the Guard.
    Dr. Heck. And then just to, in my remaining minute, you 
have all expressed concerns about H.R. 631. I know, I have read 
through your statements. There is, you know, some detailed 
concerns. But what, in your opinion, is the number one issue 
behind H.R. 631 that you think is going to be an impediment to 
the current transition process?
    Dr. Kelly. As I expressed, I think, in my written statement 
it is the curtailment of the DOL employment workshop, making 
that an optional track. The Department agrees with the original 
intent of the Vow to Hire Heroes Act,that even after you 
complete college education, technology training, you are going 
to be looking for a job and joining that workforce. You need 
the skills that the DOL employment workshop provides. We think 
that needs to be sustained as mandatory and not an optional 
track.
    Dr. Heck. And the gentlemen, any other concerns?
    Mr. Moran. If I could add one concern to that, and it is 
essentially this, that we are in the process now of rolling out 
a really nice sophisticated new program. And we haven't really 
given it an opportunity to prove itself fully. And to make 
changes to that right now, we don't think is in the best 
interest. I think it makes sense to see how this program is 
working as designed. We think it is meeting the mark. We are 
very confident in it so making changes right now just doesn't 
seem to be a wise move.
    Dr. Heck. Great. Again, thank you all very much for what 
you are doing for our service members and our veterans.
    I yield back.
    Mr. Wilson. Thank you, Dr. Heck.
    And we will now recess for votes. And we will resume with 
Congresswoman Madeleine Bordallo, of Guam.
    [Recess.]
    Mr. Wilson. Ladies and gentlemen, the Subcommittee on 
Military Personnel will resume. And we will proceed to Dr. Brad 
Wenstrup of Ohio.
    Dr. Wenstrup. Thank you, Mr. Chairman. I also would like to 
reiterate what the others have said about the work that you are 
doing to try and help our troops and subsequent veterans make 
the transition. And I was just wondering, is there an 
opportunity to work with the directors of each State VA? 
Because a lot of times, really, jobs available and things like 
that are well known on a local level. And would that be a good 
avenue to work with DOD directly with the State VAs to try and 
transition people into employment?
    Mr. Moran. Thank you for the question. Let me first talk 
about what DOL has out there, at the very local level that you 
speak of, to help that process. We have a network of 2,700 job 
centers across the country. And within those job centers, we 
employ State employees. We fund State employees, called 
Disabled Veteran Outreach Program specialists. Their job is to 
work with veterans at the local level to match them with the 
jobs they are looking for in that local community.
    In addition to the DVOP, Disabled Veteran Outreach Program, 
specialists, we have what is called a local veterans employment 
representative at those sites. Their mission is to be working 
in the local community to find jobs specifically for veterans. 
So within the Department of Labor, we have that structure in 
place, we are working that every day, and it is proving 
beneficial. Now the VA and DOD may also have some programs that 
they would like to speak to.
    Mr. Pummill. From a VA perspective, how we get involved is 
mostly with the service members that have a disability, they 
are disabled. And that is through our VR&E [Vocational 
Rehabilitation and Employment] counselors. And basically, we 
work with them on the military installations and in our 
regional offices on a one-on-one basis. Where we provide a 
counselor to determine what their individual disability is, how 
that impacts their ability to work. And then we coordinate with 
DOL to find out what is available and what we can get them 
into.
    And depending on your disability, depending on what you can 
and can't do, determines the length of the time that we stay 
with that individual.
    Dr. Wenstrup. Thank you.
    Dr. Kelly. I would like to add to that. One of the main 
emphasis of the TAP redesign was to build a bridge from Active 
Duty to the resources that are in the communities where the 
military members are relocating. So part of that capstone is a 
warm handoff. If a member is deemed at risk or does not have 
immediate employment and wants immediate employment, et cetera, 
there is a handoff between the TAP managers to the local 
resources, the DOL American Job Centers as well as the veterans 
centers.
    So that is one of the pieces that was deliberately built 
into the TAP redesign. The warm handoff to a bridge between 
Active Duty and the community resources of our partner 
agencies.
    Dr. Wenstrup. Thank you very much.
    I yield back.
    Mr. Wilson. Thank you, Dr. Wenstrup.
    We now proceed to Congressman Austin Scott of Georgia.
    Mr. Scott. Thank you, Mr. Chairman. And ma'am, gentlemen, 
thank you for being here today. And in the testimony about TAP 
you highlight the point that service members can select 
different self-elected tracks. And so my question, and I think 
this would be for you, Dr. Kelly, is when our service members 
are selecting these tracks, higher education, technical 
training, what tools, if any, are we providing them to make 
sure that they are making a decision that is in their best 
interest? In other words, not falling for aggressive marketing 
towards service members by institutions that, in some cases, 
may not be accredited?
    Dr. Kelly. Well, we start off first by taking them through 
an MOC [Military Occupation Code] crosswalk comparing what they 
have gained in their military skills; compare that to the 
civilian occupational codes. Then leading them to the DOL, my 
next move, looking at the geographic location to which they are 
moving, what is in demand in that job market, if the career 
field that they had chosen or their MOC is not going to be in 
demand in that job market. What is your plan B, where else can 
you relocate to? Or what is the career field, the second career 
field that you want to choose. Both the technical training and 
the education tracks build upon that MOC crosswalk as well as 
the DOL employment workshop, which actually is a very, very 
detailed step-by-step process to take them through the 
employment market.
    But the education track guides them through a series of 
questions after they have been through the MOC crosswalk, the 
DOL employment workshop. What is the best institution for your 
career field in your area? What is the best course of study for 
the career field that you have chosen? As well as what is your 
financial strategy--on top of that Post-9/11 GI Bill, very 
generous, but what is your financial strategy to avoid debt 
while you are going to school. And then finally, how to fill 
out that application.
    So it is a lot of information, a lot of Web-based tools 
that are kept up to date by the Department of Education and our 
other partner agencies that the military members learn to 
navigate and use over and over again.
    Mr. Scott. Thank you. Can you tell me just briefly what are 
we doing with organizations in our efforts to end 
misrepresentation to our service members. People that are 
there, quite honestly, just to get the money, not to provide an 
education that is actually going to benefit the men and women 
that have served this country? What are we doing today with 
that?
    Dr. Kelly. We are steering them towards those Web sites 
sponsored and developed by the Department of Education to show 
them the accredited schools, either nationally accredited or 
regionally accredited, that are recognized by the Department of 
Education, that are recognized by VA, as reimbursable for their 
GI Bill. We are taking them to the Web sites, the established 
Web sites from our Federal partners and educating them about 
the institutions that are out there.
    The efforts to exploit the service members and use that 
Post-
9/11 GI Bill, and they come out with nothing, they are very 
carefully warned. And that is exactly why we develop the 
technical training track and the education tracks. It is 
chockfull of information.
    Mr. Scott. Are we requiring them to go an accredited 
institution to use the GI Bill?
    Dr. Kelly. Yes. And that is the VA has to approve those 
institutions for reimbursement for the Post-9/11 GI Bill and 
the Montgomery GI Bill. But I will let my VA partner speak to 
that.
    Mr. Pummill. Yes, the institutions do have to be approved 
by the VA. And in the course of instruction that we give the 
service members for both in the Transition program, the 4-hour 
briefing that we give, we have 1 hour dedicated to education. 
The GI Bill is an incredible benefit to service members and 
their families, and we want to make sure it is used wisely and 
they make the best decisions.
    And the same thing on our technical track. And we tell them 
things like it is, you know, not just a school. Is it 
accredited university? What is the graduation rate, how do you 
find out the graduation rate? How much does it cost to go to 
that school? What kind of job are you going to get when you get 
out? What kind of income are you gonna get? Are you going to 
have any additional bills that you have to pay off yourself? 
And to think through all those things and to research them 
before you make decisions when you want to go to a school.
    Mr. Scott. Thank you very much. Mr. Chairman, I am almost 
out of time.
    I will yield the remainder back to you.
    Mr. Wilson. Thank you very much, Mr. Scott. And we will 
proceed with another round for any persons who want to 
participate.
    Mr. Moran, I am particularly concerned for disabled service 
members. What are the special services that are provided for 
our wounded warriors?
    Mr. Moran. Yes, thank you for the question, Mr. Chairman. 
The programs that we have at the Department of Labor to help 
wounded warriors begin where we forward-deploy, if you will, 
our Disabled Veterans Outreach Program specialists from our 
State offices, to medical treatment facilities. So while the 
wounded warrior is going through care, we are working with that 
person one-on-one to help them understand the labor market they 
may be interested in, how to find a job, help them build a 
resume, work with them on interviewing techniques.
    All of the things we do in the Transition Assistance 
Program for a class of 35 to 50 we do, if you will, on an 
individual basis for the wounded warrior right at the bedside. 
And further, once that person is moved out of the medical 
treatment facility he may or may not go through our TAP 
program, depending on the ability. We also make sure they 
understand that that DVOP [Disabled Veterans' Outreach Program] 
specialist is still available to the wounded warrior when they 
leave the service. They can come through an American Job Center 
and work again with the DVOP to get the services they need to 
find the job they are looking for and prepare resumes, 
interviewing techniques, et cetera.
    And even take advantage of some training opportunities that 
we provide through the Department of Labor if that is necessary 
to land the job he or she is looking for. And the other thing I 
would like to mention is that we are participating with DOD and 
VA in building the virtual TAP solution, as well. So when you 
have a wounded warrior who is not able to make it to a brick 
and mortar classroom, our virtual solution is going to help in 
that case, as well, so that they can take advantage of all the 
learning that their counterparts who were able to go to brick 
and mortar receive.
    Mr. Wilson. And do you feel like they understand they have 
reemployment rights?
    Mr. Moran. Yes, sir. With respect to reemployment rights, 
one of the other things about DOL is we are not only an 
employment agency, we also protect employment rights. A couple 
programs we have specifically within the organization is 
protecting rights around veterans preference and USERRA 
[Uniformed Services Employment and Reemployment Rights Act], 
Uniformed Services Reemployment Act. So we brief all service 
members routinely, prior to deployment, on all of their rights 
with respect to USERRA, when they come back from deployment 
what their rights are to get back into the job they left, what 
they are--if they were to receive a promotion while they were 
gone how their rights are protected for that particular aspect, 
as well.
    We also have, throughout the Department of Labor outside of 
my organization, other protection agencies who work with any 
issues that may be present; Office of Federal Contract 
Compliance, for example, is another area and department that we 
make sure the contractors who have Federal contracts are 
employing veterans at the appropriate rate.
    Mr. Wilson. And to any of the three of you, is there, in 
terms of metrics, does anyone maintain any substantiation of 
jobs secured? And then additionally, I was very encouraged. We 
had a jobs--veterans jobs fair at Aiken, South Carolina, on 
Monday. And I was really encouraged. The South Carolina Army 
National Guard has a program which is monitoring unemployment 
rates among veterans. And in South Carolina, to my joy, it went 
from 16 percent to 3.9 percent among veterans.
    And so if you want a good example, South Carolina comes in 
well. And I just know, in meeting with the personnel, that it 
was very encouraging. But has anyone maintained jobs secured 
or--and/or the level of unemployment among veterans?
    Mr. Moran. Yes, Mr. Chairman. The Department of Labor, 
through the Bureau of Labor Statistics, tracks the unemployment 
rate not only on a monthly and quarterly, but also a yearly, 
basis. Yearly is usually the best statistic because you have a 
better sampling of the population. And veterans, generally 
speaking as a whole, are employed at a better rate than the 
average American citizen. But then when you look at that 
further and you break it into various categories, then you see 
some differences among the groups.
    So, for example, Gulf War I era veterans have a 5.9 
unemployment rate compared to the general population at 8.1 
percent. Gulf War II veterans have a 9.9 overall unemployment 
rate, so it is a little bit higher than the average population. 
And then, certainly, within that Gulf War II population you 
have that age that we are all concerned about--the 18- to 24-
year-old, the generally younger person. And those rates are 
quite a bit higher than most of the other rates. So a lot of 
the efforts all three Departments focus on is trying to work 
that 18- to 24-year-old group to bring that number down as far 
as we can.
    Mr. Wilson. Well, thank you again for all of your service.
    And we will now proceed to Mrs. Davis.
    Ms. Davis. Thank you, Mr. Chairman. You know, you all 
mention the bridge and the handoff. And I am just wondering, 
between the TAP manager, local resources and the veterans' 
center we have a lot of organizations that really want to help. 
I think every community has them, some perhaps more than others 
depending upon their job markets. And I think one of the things 
that has been a little frustrating is the coordination of that. 
And in some cases, you may have groups of the Chamber that have 
stepped in, you may have other military affairs organizations.
    How are you evaluating that, or how can you tell whether 
there is an interface there that is actually working? And what 
role might we have in that, as well? How can we do that better? 
I guess the other question is, the use of social media around 
some of those extensions of the community that are there. There 
is no, maybe one good place to try and look at this information 
and understand it within communities. How can we help?
    Dr. Kelly. One of the things that we have that has been 
mandated is the National Resource Directory, which lists all of 
the resources in local communities. And that is a joint project 
VA and DOD. So that is open,that is on a Web site, the National 
Resource Directory. So that is open to all of our staff members 
to be able to use during this warm handoff that I was 
describing earlier. So it is not only the agencies of the 
Department of Labor and Veterans Affairs, but also any of those 
helping agencies that is deemed to be helpful for that service 
member or their family during that reintegration into that 
local community.
    So it is not solely focused on the Department of Labor and 
Veterans Affairs. We have that great asset, the National 
Resource Directory, and we use that extensively.
    But in reference to how each one of those local communities 
mobilize their resources and use them most efficiently and most 
effectively is a question that we have also asked. DOD, and 
with the executive steering committee, we actually have a study 
going on right now to try to get at least a peek into that, 
into different communities and to find out if we can identify 
some best practices at each one of those communities. And there 
are different types of communities, and we are eager to see 
some of the results of that.
    Mrs. Davis. Do you have any idea when some of that might be 
available?
    Dr. Kelly. It is a year-long study. It is being conducted 
by CNA [Center for Naval Analyses] for us, and we are very 
eager to see those results. And we will be happy to share those 
with you.
    Mrs. Davis. And I would hope that there is a lot of good 
outreach to the community in trying to really get it from their 
perspective.
    Ms. Kelly. The researchers are in those communities and 
actually talking with those agencies.
    Mrs. Davis. Are they able to look at social media as well 
to understand how that might be best used?
    Ms. Kelly. Within those local communities? I don't think 
that is an aspect of the study. No, I am--that is unfortunate.
    Mrs. Davis. Yes. Okay. Thank you.
    Mr. Moran. But I would like to add, if I could, that you 
are on to a very important point. What I have seen over the 
time I have been in the Department of Labor is that there has 
been a lot of activity among everybody to try to solve the 
problem, if you will, of veteran unemployment. And that is 
good, and everybody should be doing what they can. However, 
sometimes what we see is there are so many independent efforts 
that are disjointed that it can become confusing to the service 
member who is looking for that help or the veteran looking for 
that help.
    So one of the things we have under way right now through 
the Veteran Employment Initiative Task Force is to look at, at 
least within the Federal Government, how can we sort of bring 
our resources together instead of DOD, VA, DOL, Education, you 
name it, all building some solution for this employment 
problem. How can we bring our resources better together for 
what we are calling the ``Single Portal Initiative.'' So that 
we are able to point--this is our goal--be able to point to 
everybody who is interested in trying to find a job for a 
veteran to one single portal that is going to bring them to the 
best applications that are available out there so that we no 
longer have confusion and have veterans hit on a database, for 
example, that has duplicative job announcements or outdated job 
announcements.
    That we know that we are pointing them to the best source 
that is out there. That work is under way right now. In fact, a 
meeting of that group is happening this afternoon.
    Mrs. Davis. Well, that would be good to know. I would love 
to get that information.
    [The information referred to can be found in the Appendix 
on page 75.]
    Mrs. Davis. Because I actually think that there is a group 
that I am aware of that is working on that in a regional way. 
And so that would be helpful also.
    And very, very briefly, where you have groups of 
individuals, for example, retired physicians who would like to 
be helpful in helping bridge the gap between corpsmen, for 
example, and other health providers that we really need in our 
system today and they want--so how are we organized to take in 
some of that interest and to be able to direct people to 
resources? Is there any way to do that at this point? Is that 
all local, you know?
    Mr. Pummill. From a VA perspective, we have had some 
success through our Veterans Service Organizations. We have a 
long history of dealing with them. You know--the VFW [Veterans 
of Foreign Wars], AMVETS [American Veterans], Paralyzed 
Veterans, Purple Hearts--that seem to be all over the country 
and have a good idea of what is going on in communities. We 
have even invited them to our sessions, particularly out in 
your district out in San Diego. They attended all the TAP 
briefings and stuff like that to give us ideas and give us some 
input.
    We are also finding in the VA that there are some 
organizations out there, private organizations, NGOs [Non-
Governmental Organizations] that do a really good job at this, 
at transition. And we are--we don't have a formal method yet, 
but we are trying to figure out as part of, you know, studies 
VA how do we get to them, how do we get to their ideas and 
stuff like that. And we are just at the beginning of that, 
though, right now.
    Mrs. Davis. Okay, thank you. Thanks, thank you all for 
being here.
    Mr. Wilson. Thank you, Mrs. Davis.
    We now proceed to Dr. Wenstrup.
    Dr. Wenstrup. Yes, just one quick question. We were talking 
about some of these ancillary agencies that are diligently 
trying to help our troops, as well. Are you familiar or have 
you have any contact with the Easter Seals program, the Dixon 
Center? That seems to be a fairly large one. Admiral Mullen, I 
believe, is working with them and people like Gary Sinise. And 
I didn't know if you have any familiarity with that agency and 
any connection with them at all.
    Mr. Moran. I do have some familiarity with it. I am not 
steeped in knowledge on it. I know that they are out there. 
They are an organization that is trying to help crack this nut 
relative to veteran unemployment. We do work a lot with 
hundreds of different organizations. We are constantly at the 
Department of Labor Veterans' Employment Training Service 
meeting with everybody on who is doing what and trying to see 
how we can help and collaborate with each others efforts. I am 
aware we have worked with Easter Seals, but I don't have a lot 
of detail on that right now.
    Mr. Pummill. We do, Congressman--on the VA side from VHA, 
the Veterans Health Administration, especially with the wounded 
warriors, deal with a lot of those agencies in transitioning 
them back to civilian life. They have a lot that they can 
provide us as far as the severely disabled, the soldiers and 
marines that have lost limbs and things like that. They have a 
lot of experience with that, and we share a lot of information. 
As far as jobs and stuff like that, though, I wouldn't know.
    Dr. Wenstrup. I get the impression they are fairly large 
because I have seen them in several cities making their pitch 
and bringing companies together and giving large presentations 
to big companies in my district--Procter & Gamble, Cintas--and 
trying to work with them. And it might be a good relationship 
to build in some way, and maybe we can help facilitate that 
here.
    Dr. Kelly. We are actually meeting under the efforts of the 
Joining Forces efforts with Mrs. Obama and Dr. Biden, with the 
Fortune 500 companies and with the companies that are signed up 
with the 100,000 Jobs Initiative, looking at mentoring, using 
those private corporations who have members or employers who 
are willing to mentor service members as they become veterans 
and also while they are veterans. The Small Business 
Administration has also stepped up to a tremendous commitment 
for the service members.
    They have developed the entrepreneurship track, a 2-day 
curriculum. And at the end of that 2-day curriculum the service 
members are invited to complete an online--an 8-week course 
online free of charge. And at the end of that course they are 
connected to a mentor, small business mentor, a successful 
businessman, a successful businesswoman in that same area to 
help the service member veteran through those first years as a 
small business. So there are lots of mentoring efforts that we 
are engaged in, but not one-on-one through DOD. It is through 
the Joining Forces, 100 [100,000] Jobs Initiative, the Small 
Business Administration, et cetera.
    Dr. Wenstrup. Thank you. And along the line of skills 
training or getting a 4-year degree, whatever the case may be, 
do you feel that the potential students are readily informed of 
what the job opportunities are with that? In other words, you 
know, not a great time to necessarily get a degree in 
philosophy and expect to find a job, you know. No offense to 
anyone who has got a philosophy degree. But do you know what I 
am saying? I mean, are they aware of what the odds are of 
finding employment after going through that training?
    Dr. Kelly. Well, again, the DOL employment workshop does a 
terrific job of taking those service members to those Web 
sites, particularly My Next Move. Again, that geographic 
location, the job market, what is the prospect for that 
particular career field for the next 10 years. It has green 
jobs. And in the pilots that I have sat through, the military 
members just jump on that Web site. They are thrilled to see 
it; you have a hard time pulling them off of it to proceed with 
the rest of the curriculum. Very, very valuable. My Next Move 
and O*NET. So those are tremendous Web sites for that.
    Mr. Moran. If I could also, if a veteran comes into an 
American Job Center that I spoke of earlier a piece of the 
process is to sit down with that person and ask, you know, what 
are you interested in? What kind of training do you have 
already? And be able to assess gaps that may be in that 
training. And then through the American Job Center, we are able 
to provide veterans with various training opportunities to fill 
those gaps.
    So they may want to be, as I said earlier, a welder. And 
they have so much training towards that goal, but they need a 
couple more courses. Through an American Jobs Center service 
they can get those courses free of charge, which will position 
them for the job. And, of course, American Jobs Center can also 
work with them to actually attach them to the employer. So that 
is what the DOL brings to the table on that.
    Dr. Wenstrup. Well, thank you very much. And thanks for all 
you are doing.
    Mr. Wilson. Thank you, Dr. Wenstrup. And thank all of you 
for being here today. We can certainly see your commitment to 
working with military service members, military families and 
retirees. So thank you for what you are doing.
    There is no further business. The Subcommittee on Military 
Personnel shall be adjourned.
    [Whereupon, at 3:44 p.m., the subcommittee was adjourned.]


=======================================================================



                            A P P E N D I X

                             April 24, 2013

=======================================================================



=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 24, 2013

=======================================================================

                      Statement of Hon. Joe Wilson

           Chairman, House Subcommittee on Military Personnel

                               Hearing on

        Status of Implementation of the Requirements of the VOW

        Act and the Recommendations of the Presidential Veterans

        Employment Initiative Task Force for the DOD Transition

          Assistance Program--Goals, Plans, and Success (GPS)

                             April 24, 2013

    Today the subcommittee will hear testimony on the 
Transition Assistance Program run by the Department of Defense, 
Department of Labor, and Department of Veterans Affairs which 
assist transitioning military members as they prepare to 
separate from their military service to civilian life. Normally 
the military transitions just as many service members back to 
society as they enlist every year; but during the next several 
years as the military reduces end strength, that number will 
grow, so it is critical that transitioning service members are 
provided with the right information they need to make important 
decisions to support their future endeavors.
    When Congress established Transition Assistance Program in 
1991, the military was also undergoing a drawdown; but it was 
not conducted after more than 10 years of combat with men and 
women participating in multiple combat deployments. The high 
number of deployments and the high unemployment rate for post-
9/11 veterans has generated several changes that affect the 
program. First, the VOW to Hire Heroes Act of 2011 requires all 
service members who have been on Active Duty for more than 180 
days to participate in the program. Second, the Veterans 
Employment Initiative Task Force made recommendations to revamp 
and improve the existing program to ensure members were 
provided the information and services they needed, tailored to 
their postmilitary initiatives.
    Today we will hear from the witnesses about the status of 
implementation, the changes and improvements to Transition 
Assistance Program, and what mechanisms are available to 
indentify and share best practices, receive feedback from 
service members, and how does each agency define success.
    I would like to welcome our distinguished witnesses:

        <bullet> LDr. Susan S. Kelly, Deputy Director, 
        Transition to Veterans Program Office, Department of 
        Defense;
        <bullet> LMr. John K. Moran, Deputy Assistant 
        Secretary, Veterans' Employment and Training Service, 
        Department of Labor; and
        <bullet> LMr. Danny Pummill, Director, Veterans 
        Benefits Administration--Department of Defense Program 
        Office, Department of Veterans Affairs.

                    Statement of Hon. Susan A. Davis

        Ranking Member, House Subcommittee on Military Personnel

                               Hearing on

        Status of Implementation of the Requirements of the VOW

        Act and the Recommendations of the Presidential Veterans

        Employment Initiative Task Force for the DOD Transition

          Assistance Program--Goals, Plans, and Success (GPS)

                             April 24, 2013

    Mr. Chairman, I am pleased that we are holding this 
important hearing on the current status of the transition 
assistance program. Let me also welcome our witnesses, Dr. 
Kelly, Mr. Moran, and Mr. Pummill. Welcome. We appreciate all 
of you being here.
    Today's hearing will focus on how the Departments of 
Defense, Labor, and Veterans Affairs are working together to 
enhance the transition of service members back to their 
communities. Over the past several years, the unemployment 
levels of those who have served in Iraq and Afghanistan have 
received much attention. Many of these individuals following 
their service returned home to a job market that has been 
challenging, to say the least, and to communities that have 
been hard hit economically.
    While the economy and the job market continue to slowly 
improve, the transition of service members remains a focus of 
attention. Efforts to improve the transition services provided 
to service members to ensure that they are provided the tools 
they need to ensure a smooth reentry into society is vital to 
ensure the long-term stability of these individuals.
    In our efforts to help service members transition, there 
has been considerable attention paid to how we can improve the 
transfer of military skills and certifications, but what is 
less clear is whether we have an understanding of where the 
jobs in the private sector really are, and whether these new 
programs provide the capacity for a service member to 
transition their skills to meet the demands of the job market.
    For example, in 2012, we authorized the Services to allow 
transitioning service members to participate in apprenticeship 
programs while still in service. The program in San Diego, 
which I have visited a number of times, is quite impressive and 
has trained a number of marines who have gone into civilian 
jobs following their successful completion of the program.
    Transitioning out of the service and back into civilian 
life can be one of the most stressful events in a person's 
life. It is important we provide the tools these individuals 
need to succeed.
    I look forward to hearing from our witnesses, especially on 
how we are doing to implement the new requirements under the 
VOW Act and the recommendations from the President's Task Force 
on Veterans Employment. I am also interested in learning how 
the Departments will measure the effectiveness of these 
changes, and whether there continues to be gaps in the program 
that need further focus. Thank you, Mr. Chairman. 
[GRAPHIC] [TIFF OMITTED] 80766.001

[GRAPHIC] [TIFF OMITTED] 80766.002

[GRAPHIC] [TIFF OMITTED] 80766.003

[GRAPHIC] [TIFF OMITTED] 80766.004

[GRAPHIC] [TIFF OMITTED] 80766.005

[GRAPHIC] [TIFF OMITTED] 80766.006

[GRAPHIC] [TIFF OMITTED] 80766.007

[GRAPHIC] [TIFF OMITTED] 80766.008

[GRAPHIC] [TIFF OMITTED] 80766.009

[GRAPHIC] [TIFF OMITTED] 80766.010

[GRAPHIC] [TIFF OMITTED] 80766.011

[GRAPHIC] [TIFF OMITTED] 80766.012

[GRAPHIC] [TIFF OMITTED] 80766.013

[GRAPHIC] [TIFF OMITTED] 80766.014

[GRAPHIC] [TIFF OMITTED] 80766.015

[GRAPHIC] [TIFF OMITTED] 80766.016

[GRAPHIC] [TIFF OMITTED] 80766.017

[GRAPHIC] [TIFF OMITTED] 80766.018

[GRAPHIC] [TIFF OMITTED] 80766.019

[GRAPHIC] [TIFF OMITTED] 80766.020

[GRAPHIC] [TIFF OMITTED] 80766.021

[GRAPHIC] [TIFF OMITTED] 80766.022

[GRAPHIC] [TIFF OMITTED] 80766.023

[GRAPHIC] [TIFF OMITTED] 80766.024

[GRAPHIC] [TIFF OMITTED] 80766.025

[GRAPHIC] [TIFF OMITTED] 80766.026

[GRAPHIC] [TIFF OMITTED] 80766.027

[GRAPHIC] [TIFF OMITTED] 80766.028

[GRAPHIC] [TIFF OMITTED] 80766.029

[GRAPHIC] [TIFF OMITTED] 80766.030

[GRAPHIC] [TIFF OMITTED] 80766.031

[GRAPHIC] [TIFF OMITTED] 80766.032

[GRAPHIC] [TIFF OMITTED] 80766.033

[GRAPHIC] [TIFF OMITTED] 80766.034

[GRAPHIC] [TIFF OMITTED] 80766.035

[GRAPHIC] [TIFF OMITTED] 80766.036

[GRAPHIC] [TIFF OMITTED] 80766.037

[GRAPHIC] [TIFF OMITTED] 80766.038

[GRAPHIC] [TIFF OMITTED] 80766.039

[GRAPHIC] [TIFF OMITTED] 80766.040

[GRAPHIC] [TIFF OMITTED] 80766.041

[GRAPHIC] [TIFF OMITTED] 80766.042

[GRAPHIC] [TIFF OMITTED] 80766.043

?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             April 24, 2013

=======================================================================

      
             RESPONSES TO QUESTIONS SUBMITTED BY MRS. DAVIS

    Mr. Pummill. [The information was not available at the time of 
printing.] [See page 9.]

    Mr. Moran. The Department of Labor does a great deal of work with 
the Easter Seals program and strongly supports their efforts on behalf 
of Veterans, including the work being done by the Dixon Center. In 
addition, the Department has provided funding to Easter Seals 
organizations throughout the country through our discretionary grants 
programs such as the Homeless Veterans' Reintegration Program (HVRP). 
[See page 17.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 24, 2013

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. GIBSON

    Mr. Gibson. 1) With regard to the VRAP program, according to the 
VA, as of today, there are currently 113,914 applications received, 
98,132 applications approved, and yet only 43,637 veterans currently 
enrolled in training.
    a) What is the delay in getting these veterans enrolled into the 
training program?
    b) What steps have DOL and VA taken to increase staffing to meet 
the additional demand for the VRAP?
    c) I hear reports of conflicting acceptance letters to the VRAP 
program being sent to veterans that are subsequently followed by VRAP 
program denial letters. In these cases where an approval letter has 
been received and training begun, the veteran is stuck with a bill for 
this training. Are you aware if this is happening, and if so, why it is 
happening?
    d) Does the VA Educational Office in Buffalo have the resources it 
needs in order to accomplish their mission?
    e) Do you see any issue with the VA centralizing educational and 
job training claims at one claims center? (Buffalo)
    Dr. Kelly. The Veterans Retraining Assistance Program (VRAP) offers 
a limited number of months of retraining assistance to Veterans who 
meet specific criteria. This program is managed by the Department of 
Veterans Affairs and Department of Labor, who can best provide you with 
the enrollment status, staffing, resources, and management of VRAP.

    Mr. Gibson. 2) With regard to the VRAP program, according to the 
VA, as of today, there are currently 113,914 applications received, 
98,132 applications approved, and yet only 43,637 veterans currently 
enrolled in training.
    a) What is the delay in getting these veterans enrolled into the 
training program?
    b) What steps have DOL and VA taken to increase staffing to meet 
the additional demand for the VRAP?
    c) I hear reports of conflicting acceptance letters to the VRAP 
program being sent to veterans that are subsequently followed by VRAP 
program denial letters. In these cases where an approval letter has 
been received and training begun, the veteran is stuck with a bill for 
this training. Are you aware if this is happening, and if so, why it is 
happening?
    d) Does the VA Educational Office in Buffalo have the resources it 
needs in order to accomplish their mission?
    e) Do you see any issue with the VA centralizing educational and 
job training claims at one claims center? (Buffalo)
    Mr. Moran. a) The online VRAP application process requires each 
eligible veteran to have in mind the course of instruction, their 
``high demand'' training objective and the training institution they 
have selected before their application is submitted. Once the 
appropriate Department of Veterans Affairs (VA) office approves each 
application, a certificate of enrollment (CoE) is issued to the 
veteran. Each veteran is responsible to take the CoE issued to their 
selected place of training to enroll.
    b) The VRAP program has a relatively short authorized time period 
and no additional resources were appropriated for the Department of 
Labor's (DOL or Department) administrative costs. As a result, the 
Department of Labor has not increased permanent Federal staff in 
response to our VRAP responsibilities. However, the Department did 
redirect funding from other activities to implement VRAP including 
entering into contracts for technical assistance and information 
technology needs that are necessary to support DOL in responding to the 
additional demands created by VRAP.
    c) DOL sends an e-mail to all veterans who receive a CoE from the 
VA. This e-mail is separate from the VA's approval/denial letters and 
the Department defers to the VA on issues relating to those letters. 
However, the Department of Labor is committed to assisting veterans 
that received VRAP denial letters in a variety of ways including 
helping them understand the reason for the denial and how to properly 
process appeals. In addition, State agencies receive information about 
individuals that were terminated from VRAP for noncompliance with the 
program requirements in order to contact those individuals to offer 
them alternative training and employment related services. Veterans 
receive priority of service in all DOL-funded employment and training 
programs, including the many programs operated out of the American Job 
Centers (AJC) across the Nation.
    d) The Department of Labor defers to the VA on subparts (d) and 
(e).

    Mr. Gibson. 3) With regard to the VRAP program, according to the 
VA, as of today, there are currently 113,914 applications received, 
98,132 applications approved, and yet only 43,637 veterans currently 
enrolled in training.
    a) What is the delay in getting these veterans enrolled into the 
training program?
    b) What steps have DOL and VA taken to increase staffing to meet 
the additional demand for the VRAP?
    c) I hear reports of conflicting acceptance letters to the VRAP 
program being sent to veterans that are subsequently followed by VRAP 
program denial letters. In these cases where an approval letter has 
been received and training begun, the veteran is stuck with a bill for 
this training. Are you aware if this is happening, and if so, why it is 
happening?
    d) Does the VA Educational Office in Buffalo have the resources it 
needs in order to accomplish their mission?
    e) Do you see any issue with the VA centralizing educational and 
job training claims at one claims center? (Buffalo)
    Mr. Pummill. [The information was not available at the time of 
printing.]

                                  <all>

</pre></body></html>
